U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


             INTERNATIONAL TRADE
                  ADMINISTRATION

            Market Development Cooperator
           Program Award Process Promotes
                 Merit-Based Decisions, But
             Practices Need More Discipline

                                 CFDA No. 11.112
      Audit Report No. ATL-10999-0-0001 / December 1999




                  Office of Audits, Atlanta Regional Office
U.S. Department of Commerce                                                                          Audit Report ATL-10999-0-0001
Office of Inspector General                                                                                          December 1999

                                                   TABLE OF CONTENTS

                                                                                                                                        Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.         MDCP Developed and Published Merit-Based Evaluation Criteria . . . . . . . . . . 6

          II.        MDCP Solicitation Procedures Obtained a Widespread Response . . . . . . . . . . 7

          III.       MDCP Review Process Did Not Fully Meet the Independence Requirement,
                     Was Inadequately Documented and, for Fiscal Year 1998, Different from One
                     Set Forth in Public Notice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                     A. Fiscal Year 1997 Review Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     B. Fiscal Year 1998 Review Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          IV.        MDCP Procedures and Practices for Selecting Awardees Were Adequate . . . 11

          V.         Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          VI.        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          VII.       ITA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          VIII.      OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX I - MDCP Procedures for Solicitation, Review, and Selection of Awards

APPENDIX II - ITA Response to Draft Report
U.S. Department of Commerce                                            Audit Report ATL-10999-0-0001
Office of Inspector General                                                            December 1999

                                   EXECUTIVE SUMMARY

The Office of Inspector General has conducted an audit of the fiscal year 1997 criteria,
procedures, and practices for soliciting, reviewing, and selecting applications for financial
assistance under the International Trade Administration’s Market Development Cooperator
Program (MDCP), classified as Number 11.112 in the Catalog of Federal Domestic Assistance.
The audit was conducted as part of a Department-wide review of Commerce’s discretionary
financial assistance programs initiated at the request of the Chairman of the Senate Committee on
Commerce, Science and Transportation.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
approximately $1 billion annually.

Through the MDCP, ITA provides financial assistance to: (1) nonprofit industry organizations;
(2) trade associations; (3) state departments of trade and their regional associations, including
centers for international trade development; and (4) private industry firms or groups of firms in
cases where no entity described above represents that industry. The program funds projects that
develop, maintain, and expand foreign markets for nonagricultural goods and services produced
in the United States. Applicants are encouraged to propose market development projects that
would most appropriately meet the needs of the industry or the industries they represent. To
receive funding, the applicant must contribute at least two dollars for each federal dollar provided.
In fiscal year 1997, ITA officials received 41 applications for over $10 million, of which 38 were
accepted for review, and 6 grants, totaling $1,851,714, were awarded.

We examined ITA’s criteria, procedures, and practices for soliciting, reviewing, and selecting
MDCP awards and found that the solicitation and selection processes complied with statutory,
departmental, and ITA requirements. However, we found that ITA’s application review practices
did not fully meet departmental and ITA requirements. More specifically, our audit disclosed
that ITA:

l      Developed and published merit-based technical and public policy criteria that were
       consistent with the objectives of the program, as required by DAO 203-26, Sections 4.02a.
       and b., and Financial Assistance Notice No. 17, Sections .01 and .03 (see page 6).

l      Exceeded the Department’s and ITA’s requirements that a notice be placed in the Federal
       Register, at least annually, announcing the availability of funds and soliciting award
       applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding. The annual notice is required by DAO 203-26, Section
       4.02b. ITA’s solicitation efforts were sufficient to obtain a widespread response from
       eligible applicants (see page 7).

                                                  i
U.S. Department of Commerce                                         Audit Report ATL-10999-0-0001
Office of Inspector General                                                         December 1999

l      Followed a review process where the Independent Review Panel did not fully meet the
       independence requirement, as required by DAO 203-26, Section 4.02h1., and could not
       provide documentation, as required by DAO 203-26, Section 4.05b, to verify that all
       applications were reviewed by the Independent Review Panel, as announced in the
       Federal Register and which program officials contend was done (see page 8).

l      Contrary to the published review procedures, allowed program staff to review and rank
       fiscal year 1998 applications (see page 10).

l      Followed established Department and ITA requirements for selecting applications for
       funding under the MDCP (see page 11).

We recommend that the Assistant Secretary for Trade Development ensure that:

1.     The MDCP discontinue the review and ranking process by the program staff and ensure
       that all eligible applications are reviewed by at least three members of an independent
       review panel who are from program areas entirely outside the Trade Development
       program area;

2.     The MDCP review process is adequately documented and that documentation for
       determination of ineligible applications and evaluations by the Independent Review Panel
       is retained for seven years in accordance with the Department’s Request for Records
       Disposition Authority filed with the National Archives and Records Service on October 4,
       1986; and

3.     The MDCP review and selection process is consistent with the public announcement.

Our recommendations are on page 13.

In its response to the draft report, ITA concurred with our recommendation to ensure that the
MDCP review process is adequately documented and documentation is retained for seven years.
ITA stated that it has modified its procedures to ensure that the recommendation is implemented.
ITA also agreed with our recommendation to ensure that the review and selection process is
consistent with its public announcement. ITA stated that it published a Federal Register notice
in May 1999 that fully explained the process.

In response to our draft report recommendation that review and selection policies and procedures
be formalized in a written policy statement or operating manual, ITA stated that written policy
statements describing the awarded process are in effect and cited the availability of policy
statements as published in the Federal Register and on the Internet. We accept ITA’s response
and have eliminated this recommendation from the final report.


                                               ii
U.S. Department of Commerce                                           Audit Report ATL-10999-0-0001
Office of Inspector General                                                           December 1999

ITA disagreed with our recommendation that it discontinue its practice of allowing applications to
be initially reviewed and ranked by the program staff and ensure that all eligible applications are
reviewed by the Independent Review Panel. ITA considers staff comments to be invaluable to
the process and also believes that strict adherence to the Department’s draft grants and
cooperative agreements administrative manual’s definition of independence would preclude
ITA’s senior managers from serving on the Independent Review Panel. ITA’s complete
response, excluding attachments, is included as Appendix II.

Our recommendation was not intended to prohibit consideration of comments from the program
staff. It was intended to prevent the program staff review from effectively eliminating eligible
applications from further review by the Independent Review Panel. In addition, we believe the
inclusion of senior managers from ITA’s Trade Development program area on review panels
does not provide a reasonable measure of independence. We believe that requiring all rating
officials serving on the Independent Review Panel to be from program areas outside the Trade
Development program area would provide a reasonable measure of independence that is
consistent with the intent of the definition of independence that the Department is pursuing in the
draft grants and cooperative agreements administrative manual. We also believe the inclusion of
a senior manager from the Trade Development program area, in a strictly advisory role, would be
acceptable and not impair the independence of the Independent Review Panel.




                                                iii
U.S. Department of Commerce                                             Audit Report ATL-10999-0-0001
Office of Inspector General                                                             December 1999

                                        INTRODUCTION

The International Trade Administration administers the Market Development Cooperator
Program (MDCP), described in the Catalog of Federal Domestic Assistance (CFDA) as
No. 11.112. The program was established under the Omnibus Trade and Competitiveness Act of
1988, Public Law 100-418, Title II, Section 2303, 102 Stat. 1342, 15 U.S.C. 4723. The program
provides financial assistance to (1) nonprofit industry organizations; (2) trade associations; (3)
state departments of trade and their regional associations, including centers for international trade
development; and (4) private industry firms or groups of firms in cases where no entity described
above represents that industry.

The program funds projects that develop, maintain, and expand foreign markets for
nonagricultural goods and services produced in the United States. Applicants are encouraged to
propose market development activities that would most appropriately meet the needs of the
industry or industries they represent. To receive funding, the program requires an applicant to
contribute at least two dollars for each federal dollar provided.

Competition is generally recognized as the most effective method of ensuring that financial
assistance awards are made on the basis of merit. One of the primary purposes of the Federal
Grant and Cooperative Agreement Act (31 U.S.C. §6301) is to encourage competition in the
award of federal financial assistance to the maximum extent practicable.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance programs,
determined that financial assistance award processes, to ensure effective competition, should
include three basic elements. These elements, which were discussed in OMB’s June 1980 report,
Managing Federal Assistance in the 1980's, and are still applicable, include:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justification for award decisions that deviate from recommendations made by
       applicant reviewers.

Also, OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering federal financial assistance programs:
U.S. Department of Commerce                                            Audit Report ATL-10999-0-0001
Office of Inspector General                                                            December 1999

l      OMB Circular A-89, Federal Domestic Program Information, implements the mandate
       of the Federal Program Information Act, requiring agencies to systematically and
       periodically collect and distribute current information to the public on all federal domestic
       assistance programs, which is accomplished through the semiannual publication of the
       Catalog of Federal Domestic Assistance.

l      OMB Circulars A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be reviewed for consistency with agency priorities by a policy level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and
       Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
       Organizations, requires agencies to provide the public with advance notice of their
       intended funding priorities for discretionary assistance programs unless such priorities are
       established by federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the
       mandates of the Federal Managers Financial Integrity Act (P.L. 97-255) requiring
       agencies to establish written procedures for all programs and administrative activities,
       including financial assistance programs, that provide reasonable assurance that
       activities are effectively and efficiently managed to achieve agency goals.

Commerce has relied upon these guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO)
203-26, Department of Commerce Grants Administration, requires that (1) all Commerce
financial assistance awards be made on the basis of competitive reviews unless a special waiver is
obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and
(3) all Commerce agencies publish, at least annually, a notice in the Federal Register announcing
the availability of funding, soliciting award applications, and specifying the criteria and the
process to be used in reviewing and selecting applications for funding.

The chart presented on the next page depicts the process and controls for the solicitation, review,
and selection of financial assistance awards as set forth in DAO 203-26. The processes we
reviewed are color coded for this chart and the ITA process chart located in Appendix I.




                                                -2-
U.S. Department of Commerce                                                                                                                                   Audit Report ATL-10999-0-0001
Office of Inspector General                                                                                                                                                   December 1999




                                           Department of Commerce Financial Assistance Awards Process
  Congress




                                     LEGISLATIVE AUTHORITY &
                                     APPROPRIATIONS REQUIREMENTS




                                                                                                                                        PREAWARD SCREENING
   Department




                                                                                                                                        * Office of General Counsel Review        FINANCIAL
                                     POLICIES &
                                                                                                                                                                                  ASSISTANCE
                                     PROCEDURES                                                                                         * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                          -- Limited Background Check
                                                                                                                                          -- Credit Review
                                                                                                                                          -- Outstanding Audit Issues




                                                        SOLICITATION                 REVIEW
   Bureau/Program




                                                                                                             SELECTION                               PREAWARD SCREENING
                                      POLICIES &
                                      PROCEDURES        Public Announcement          * Independent Review    *   Quantitative Scores                 * Outstanding Accounts       SIGNED BY GRANT
                                                        and notification of             Panel(s)             *   Public Policy Considerations          Receivable                 OFFICER
                                                        financial assistance         * Evaluation Criteria   *   Recommend Action                    * Suspensions & Debarments   OR DESIGNATED
                                                        opportunities (eg.           * Numeric Ranking       *   Decision Fully Justified and        * Award Prepared Properly    OFFICIAL
                                                        Federal Register,
                                                                                                                 Documented
                                                        Commerce Business
                                                        Daily, Internet web sites)
   Financial Assistance Applicants




                                                                                                                                                                                     AWARD
                                                        PROPOSAL




Figure 1




                                                                                                                 -3-
U.S. Department of Commerce                                          Audit Report ATL-10999-0-0001
Office of Inspector General                                                          December 1999

                                   PURPOSE AND SCOPE

This audit was conducted as a part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman, of the Senate
Commerce, Science, and Transportation Committee. The Chairman requested that the Inspectors
General of the Departments of Commerce and Transportation and the National Science
Foundation review the discretionary funding programs of their respective agencies to assess the
manner in which discretionary funding decisions are made. More specifically, the Chairman
requested that each IG review and report on the criteria developed, either statutorily or
administratively, to guide agency officials in making discretionary spending decisions, and on the
extent to which the criteria are appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase and an individual
program audit phase. During the survey phase, we identified and examined the body of laws,
regulations, and other guidance applicable to the administration of federal financial assistance
programs. We also examined the authorizing legislation, provided by Department Officials, for
each Commerce financial assistance program and classified each program as either a “full
discretion” program or a “limited discretion” program, based on the extent to which the
legislation limits the agency’s authority to independently determine the recipients and funding
levels of the awards made under the program. Finally, we examined the fiscal year 1997
appropriations legislation to identify any legislatively mandated awards. No legislatively
mandated awards were found.

During the second phase of our review, we are conducting individual audits of the application
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the ITA MDCP. We are evaluating the adequacy of each
program’s established award procedures and the criteria for evaluating individual applications.
For those programs with procedures deemed to be adequate, we are ascertaining whether they
were followed in making awards in fiscal year 1997. For those programs with procedures
considered to be inadequate or lacking, we are reviewing how the fiscal year 1997 award
decisions were made. Finally, we are examining the legislatively mandated projects identified for
each program and determining their significance and impact on fiscal year 1997 award decisions.
We plan to issue individual reports, with any appropriate recommendations, on each program,
followed by a capping report summarizing the results of the individual audits and providing
recommendations for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
results of the preliminary, survey phase of the OIG’s review, and discussed some of the
preliminary observations from the individual program audits.


                                               -4-
U.S. Department of Commerce                                          Audit Report ATL-10999-0-0001
Office of Inspector General                                                          December 1999

This performance audit focused on funding decisions made during fiscal year 1997 under the
MDCP. Specifically, we:

l      Reviewed the authorizing legislation, provided by Department officials, and information
       summarized in the CFDA to identify criteria for funding decisions.

l      Reviewed policies and procedures for soliciting and reviewing proposals and selecting
       recipients for funding (see Appendix I for flowchart of process). We also reviewed ITA’s
       procedures, contained in the Market Development Cooperator Program Competitive
       Application Kit, as they applied to the solicitation, review, and selection process and
       assessed whether they were in accordance with DAO 203-26, Department of Commerce
       Grants Administration, and Office of Federal Assistance Financial Assistance Notice No.
       17, Department of Commerce Guidelines for the Preparation of Federal Register
       Notices Announcing the Availability of Financial Assistance Funds – Requests for
       Applications.

l      Compared ITA’s procedures with its practices to determine if the process contained
       adequate internal controls to provide for competitive, merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       departmental and ITA policies and procedures were followed.

l      Interviewed ITA program office officials and personnel from the Department’s Office of
       Executive Assistance Management (OEAM) concerning ITA’s solicitation, review, and
       selection procedures.

l      Examined fiscal year 1997 appropriations legislation to identify legislatively mandated
       projects and accompanying committee and conference reports to identify projects
       recommended for funding under this program.

As a result of information obtained during our examination of the fiscal year 1997 awards
process, we expanded our audit to include application review procedures and practices for fiscal
year 1998 awards.

We did not rely upon computer-based data supplied by ITA and OEAM as a basis for our audit
findings and recommendations. Consequently, we did not conduct tests of either the reliability
of the data or the controls over the computer-based system that produced the data.

We performed the audit fieldwork at ITA headquarters and OEAM in Washington, D.C., during
May and June 1998. Because the audit scope was expanded to include 1998 review procedures
and practices, additional fieldwork was conducted in December 1998. We conducted the audit in
accordance with generally accepted government auditing standards, under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
May 22, 1980, as amended.

                                               -5-
U.S. Department of Commerce                                            Audit Report ATL-10999-0-0001
Office of Inspector General                                                            December 1999

                              FINDINGS AND RECOMMENDATIONS

We found that ITA’s criteria, procedures, and practices for soliciting and selecting MDCP award
recipients generally complied with statutory, departmental and ITA requirements. ITA’s efforts
to solicit applications for MDCP awards for fiscal year 1997 exceeded the Department’s
minimum requirements and generated a widespread response from multiple eligible applicants.
ITA also followed selection procedures appropriate to ensure that decisions for funding did not
deviate from the Independent Review Panel’s recommendations. However, ITA’s Independent
Review Panel was not fully independent, and ITA did not maintain adequate documentation on
each individual reviewer’s evaluation for both fiscal year 1997 and 1998 awards. Therefore, we
were unable to adequately verify that each application was reviewed by the panel. In addition,
the process described in the public announcement of the fiscal year 1998 competition was
different from the actual process.

V.     MDCP Developed and Published Merit-Based Evaluation Criteria

MDCP developed and published merit-based technical and public policy criteria that were
consistent with the objectives of the program for use in evaluating applications for fiscal year
1997 MDCP awards. The criteria were published in the program’s application kit and in the
Federal Register, Volume 62, Number 105, dated June 2, 1997, as required by DAO 203-26,
Section 4.02b., and Financial Assistance Notice No. 17, Sections .01 and .03. The Federal
Register listed the following evaluation criteria with items (1) through (4) counting for 20 points
each and items (5) and (6) counting for 10 points each:

       (1)     Potential of the project to generate export sales or major foreign project/contract
               success stories in both the short and medium term.

       (2)     The degree to which the proposal furthers or is compatible with ITA’s priorities
               and the markets identified and the degree to which a proposal initiates or enhances
               partnership with the Department of Commerce.

       (3)     Creativity and innovation displayed by the work plan, which is also realistic.

       (4)     Reasonableness of the itemized budget for project activities, the amount of cash
               match that is readily available at the beginning of the project, and the probability
               that the project can be continued on a self-sustained basis after the award
               completion.

       (5)     The institutional capacity of the applicant to carry out the work plan and the
               willingness and ability of the applicant to back up promotional activities with
               aggressive marketing and after-sales service.


                                                -6-
U.S. Department of Commerce                                              Audit Report ATL-10999-0-0001
Office of Inspector General                                                              December 1999

       (6)     Projected increase in the number of U.S. companies operating in the market(s)
               selected and intent and capability of the applicant to enlist the participation of
               small-and medium-size U.S. companies in project consortia and activities.

Based upon our review, we concluded that the MDCP criteria for evaluating applicants were
designed to result in merit-based funding decisions. However, as discussed under section III., the
Independent Review Panel was not fully independent for either fiscal year 1997 or 1998.

II.    MDCP Solicitation Procedures Obtained a Widespread Response

ITA’s procedures and practices for soliciting applications for the fiscal year 1997 MDCP awards
were sufficient to obtain a widespread response from eligible applicants. ITA’s solicitation
efforts exceeded the Department’s minimum requirements and resulted in MDCP receiving 41
applications for the 1997 competition.

DAO 203-26, Section 4.02 lists required grant review procedures for competitive grant programs.
These procedures are designed in part to ensure widespread notification of the availability of
federal financial assistance funds to the interested public. Relating to the solicitation of applicants
for federal financial assistance, section 4.02 provides the following criteria, in part:

l      Annual Public Notice. To inform the interested public, each organization unit shall
       publish at least annually a notice in the Federal Register which includes basic information
       for each discretionary grant program.

l      Other Solicitations of Applications. Further notice(s) in the Federal Register or other
       publications soliciting applications or preapplications must also include the information
       published in the annual public notice.

l      Minimum Notice. In order to provide the public reasonable notice, there must be a
       minimum of 30 days between the date of publication and the closing date for receipt of
       applications.

ITA solicits applications with an announcement in the Federal Register, and OEAM ensures that
all required information is included in the notice before ITA officials submit the announcement
for publication in the Federal Register. Although ITA is only required to publish the program
announcement in the Federal Register, program officials expanded their solicitation to other
media. ITA placed the solicitation notice on the ITA Internet web site, and sent solicitation
notices to about 1,000 potential applicants on its mailing list.

Employing these solicitation methods for the 1997 awards, ITA received 41 applications. It was
determined that 3 of the 41 applications were ineligible. The remaining 38 applications were
submitted to the MDCP Independent Review Panel for review and evaluation.


                                                 -7-
U.S. Department of Commerce                                            Audit Report ATL-10999-0-0001
Office of Inspector General                                                            December 1999

III.   MDCP Review Process Did Not Fully Meet the Independence Requirement, Was
       Inadequately Documented and, for Fiscal Year 1998, Different from One Set Forth
       in Public Notice

MDCP’s fiscal year 1997 and 1998 procedures for reviewing applications for awards, as
published in the Federal Register, were sufficient, if followed, to provide a competitive,
independent and qualified review of each application. The Independent Review Panel used
merit-based, technical and public policy criteria, which were consistent with the objectives of the
program, in evaluating the applications. However, the Independent Review Panel did not fully
meet the independence requirement for either fiscal year 1997 or 1998, and ITA did not maintain
adequate documentation for each individual reviewer’s evaluation for fiscal year 1997 or 1998
awards. In addition, we found that the fiscal year 1998 review process set forth in the Federal
Register announcement differed from the process actually used.

DAO 203-26, Section 4.02h.1, sets forth the following minimum requirements for the competitive
review process, which Department policy requires to be used as the basis for making awards:

l      Applications should be reviewed only when submitted in response to a notice in the
       Federal Register or other publications.

l      Applications should be treated fairly under the review process.

l      Applications should receive an independent, objective review by one or more review
       panels qualified to evaluate the applications.

l      Review panels should consist of at least three persons and may include one or more
       individuals who are not employees of the federal government.

l      Review panels should use selection criteria covered by the application notice.

l      Organization unit should prepare a rank ordering of applications based solely on
       evaluations by the review panel.

l      Organization unit should determine the order in which the applications will be selected for
       funding based on:

       (1)   any priorities or other program requirements published in the Federal Register that
             apply to the selection of applicants for new awards, and




                                                -8-
U.S. Department of Commerce                                            Audit Report ATL-10999-0-0001
Office of Inspector General                                                            December 1999

       (2)   the rank order of applications established by the review panel on the basis of the
             selection criteria.

MDCP’s review procedures, as published in the Federal Register, also contain review panel
requirements. The Independent Review Panel is to consist of a minimum of three independent
reviewers. The reviewers are to be qualified to evaluate the applications submitted under the
program based on the criteria set forth in the Federal Register. The panel must identity and rank
the top ten proposals and make recommendations to the Assistant Secretary for Trade
Development concerning which of the proposals should receive awards (see page 7).

A. Fiscal Year 1997 Review Process

Review Panel Did Not Fully Meet the Independence Requirement

For fiscal year 1997, we determined that the Independent Review Panel did not fully meet the
independence requirement. The panel was composed of a chairman selected by the Assistant
Secretary for Trade Development from the Trade Development program area and three other
representatives selected by the Assistant Secretaries from ITA’s three program areas with an
interest in export promotion (Trade Development, U.S. and Foreign Commercial Service, and
Market Access and Compliance).

The Trade Development program area of ITA is the component organization that operates MDCP
and the selecting official is the Assistant Secretary for Trade Development. The review practice
of having the Independent Review Panel’s chairman and one other member selected from the
Trade Development program area is not consistent with the review process outlined in the
Federal Register notice soliciting applications for the 1997 MDCP competition. The notice states
that each application will receive an independent, objective review by a panel qualified to evaluate
the applications submitted under the program.

The Department’s October 1998 version of the draft grants and cooperative agreements
administrative manual provides information regarding reviewer independence. The draft manual
states:

        “An independent reviewer is an objective, unbiased individual with the requisite
       expertise, knowledge, and experience in a technical field who is appointed to serve
       on a review panel to evaluate or assess the technical merits of an application for
       financial assistance. An independent reviewer, as used in this definition, is one
       who has not played any role in soliciting, providing technical assistance or advice
       to applicants, and will not be involved in the administration of awards made as a
       result of applications under review by the review panel on which the individual
       serves. An independent reviewer should not be in the chain-of-command of the
       program’s selecting official. In addition, an independent reviewer must not have a
       conflict of interest with any application under review by the panel on which he or
       she serves.”

                                                -9-
U.S. Department of Commerce                                          Audit Report ATL-10999-0-0001
Office of Inspector General                                                          December 1999

We believe the MDCP practice of having two representatives from the Trade Development
program area serve as reviewers on the Independent Review Panel does not provide a reasonable
measure of independence, and could raise questions about the fairness and objectivity of the
review process.

Adequate Reviewer Documentation Not Maintained

We could not verify that all of the review panel members evaluated all 38 eligible applications as
they were supposed to do. Panel summary evaluations or scores were used to rank all of the
applications reviewed. The top 10 were submitted to the selection official. However, only the top
6 applications were recommended for funding based on the amount of funds available. The
panel’s scores for the top 6 applications ranged from 72.50 to 80.25. The scores for the 4
applications that were in the top 10, but not recommended for funding, ranged from 66.25 to 72.
The scores of the 28 applicants that did not make the top 10 ranged from 26.75 to 66.

While a summary score sheet was available showing the four individual panel member scores and
the overall score for each applicant, MDCP’s files did not contain documentation on each panel
member’s justification for the scores. To determine the extent of the lack of documentation, we
randomly selected 12 of the 38 applications, and asked the Acting Program Director and panel
members to provide us with any documentation that they might have on the evaluations of the 12
applications. The Acting Program Director told us that the reviewers are not required to submit
their individual evaluations of the applications. In the end, we were able to verify full
documentation on the 12 applications for only one of the four reviewers; only partial
documentation for another member; and no documentation for the remaining two members.
Also, according to MDCP’s Acting Program Director, MDCP did not maintain backup
documentation relating to the three applications determined to be ineligible. The MDCP review
process needs to be adequately supported and the documentation for determination of ineligible
applications and panel member evaluations needs to be retained for seven years in accordance
with the Department’s Request for Records Disposition Authority filed with the National
Archives and Records Service on October 4, 1986.

B. Fiscal Year 1998 Review Process

As a result of information obtained during our examination of the fiscal year 1997 awards
process, we expanded our audit to cover review procedures and practices for fiscal year 1998
awards. For fiscal year 1998, we found that the Independent Review Panel did not fully meet the
independence requirement. The same lack of independence occurred in fiscal year 1997 and is
more fully discussed on page 9. A summary sheet of the fiscal year 1998 Independent Review
Panel’s scores showed that 36 of the 45 eligible applications were actually reviewed by at least
three members of the panel, while the other 9 applications were reviewed by only one or two
panel members. The Acting Program Director was unable to provide an explanation as to why
the 9 only received a limited review. Since ITA does not require MDCP reviewers to retain
documentation of their reviews, we were not able to adequately verify that the reviews actually
took place. The Acting Director also stated:

                                              -10-
U.S. Department of Commerce                                             Audit Report ATL-10999-0-0001
Office of Inspector General                                                             December 1999

       “All applications are forwarded to the Senior Panel (Independent Review Panel)
       for review. Because an application lacks a score on the overall listing of Senior
       Panel scores does not necessarily mean that it was not read and reviewed. In
       many instances, a Senior Panel member read an application and found it so
       lacking in merit that it was not worthy of being scored.”

We also found that the review process as outlined in the Federal Register notice soliciting
applications for the 1998 MDCP competition was different from the review process actually used
in selecting applications for funding. The notice states that each application will receive an
independent, objective review by a panel qualified to evaluate the applications submitted under
the program. However, two sets of evaluations were performed, the first by the program staff
and the second by the Independent Review Panel. While both reviews used the same criteria, the
independence and objectivity of the review by the program staff could have been questioned
because of the reviewers’ association with the MDCP. Independence is described in the
Department’s draft grants and cooperative agreements administrative manual (see discussion
under section A of this report on page 10).

The practice of having program staff initially review and rank the eligible applications, followed
by the Independent Review Panel’s review of only selected applications, conflicts with the
announced review procedures and calls into question the independence and objectivity of the
review process. We believe the initial program staff review is an appropriate advisory process but
should not be used to effectively eliminate eligible applications, i.e., at least three members of the
Independent Review Panel should review and score all eligible applications.

IV.    MDCP Procedures and Practices for
       Selecting Awardees Were Adequate

MDCP’s selection procedures published in the Federal Register and its application kit and its
fiscal year 1997 practices were sufficient to satisfy departmental requirements. In accordance
with the published procedures, the fiscal year 1997 applications were ranked based on the
Independent Review Panel’s summary evaluation scores. The top 10 applications were
submitted to the Assistant Secretary for Trade Development by the panel chairman for review
and approval. Due to funding constraints, only 6 awards could be made.

The Assistant Secretary’s approvals should take into account the following seven selection
factors listed in the Federal Register notice:

       (1)     The evaluations of the individual reviewers of the Independent Review Panel;

       (2)     The degree to which applications satisfy the MDCP’s goals and objectives as set
               forth in the Federal Register.

                                                -11-
U.S. Department of Commerce                                           Audit Report ATL-10999-0-0001
Office of Inspector General                                                           December 1999

       (3)     The geographic distribution of the proposed awards;

       (4)     The diversity of industry sectors covered by the proposed grant awards;

       (5)     The diversity of project activities represented by the proposed awards;

       (6)     Avoidance of redundancy and conflicts with the initiatives of other federal
               agencies; and

       (7)     The availability of funds.

The Federal Register also provides that the objective of the program is to “develop, maintain,
and expand foreign markets for nonagricultural goods and services produced in the United
States.” The objective is considered by the Assistant Secretary, along with the Independent
Review Panel’s recommendations, in making final selections.

ITA’s selection procedures require the Assistant Secretary authority to select applications for
awards from the top 10 applicants as determined by the Independent Review Panel. The
Assistant Secretary made no adjustments to the listing provided by the panel. The six fiscal year
1997 awards totaled $1,851,714, and represented the top 6 of the 10 applications recommended
for funding.

ITA also notifies unsuccessful applicants and this policy assists an applicant in developing
proposals for future funding consideration. According to MDCP staff, all 32 applicants not
funded were notified, for which we verified a selected number.

V.     Conclusions

We found that ITA’s criteria, procedures, and practices for soliciting and selecting MDCP award
recipients generally complied with statutory, departmental and ITA requirements. We also found
that ITA’s solicitation of applications for fiscal year 1997 awards exceeded the Department’s
minimum requirements and generated a widespread response from many eligible applicants. ITA
published MDCP award procedures in the Federal Register and in its application kit for both the
1997 and 1998 fiscal year awards. In addition, ITA followed selection procedures appropriate to
ensure that decisions for funding did not deviate from the Independent Review Panel’s
recommendations. However, the Independent Review Panel did not fully meet the independence
requirement for either fiscal year 1997 or 1998, and ITA did not maintain adequate
documentation on each individual reviewer’s evaluations for fiscal year 1997 and 1998 awards.
In addition, the process used to evaluate fiscal year 1998 applications was different from the
process announced in the Federal Register. Finally, we could not adequately verify that all
eligible applications for fiscal year 1998 were reviewed by at least three members of the
Independent Review Panel.

                                               -12-
U.S. Department of Commerce                                            Audit Report ATL-10999-0-0001
Office of Inspector General                                                            December 1999

VI.    Recommendations

We recommend that the Assistant Secretary for Trade Development ensure that:

1.     The MDCP discontinue the review and ranking process by the program staff and ensure
       that all eligible applications are reviewed by at least three members of an independent
       review panel. This recommendation includes ensuring that the Independent Review Panel
       is composed of rating officials who are from program areas entirely outside the Trade
       Development program area;

2.     The MDCP review process is adequately documented and that documentation for
       determination of ineligible applications and evaluations by the Independent Review Panel
       is retained for seven years in accordance with the Department’s Request for Records
       Disposition Authority filed with the National Archives and Records Service on October 4,
       1986; and

3.     The MDCP review and selection process is consistent with the public announcement.

VII.   ITA Response

In its response to the draft report, ITA concurred with our recommendation to ensure that the
MDCP review process is adequately documented and the documentation is retained for seven
years. ITA stated that it has modified its procedures to ensure that the recommendation is
implemented. ITA also agreed with our recommendation to ensure that the review and selection
process is consistent with the public announcement. ITA stated that it published a Federal
Register notice in May 1999 that fully explained the process.

In response to our recommendation that policies and procedures be formalized in a written
policy statement or operating manual, ITA stated that written policy statements describing the
awarded process are in effect and cited the availability of policy statements as published in the
Federal Register and on the Internet. We accept ITA’s response and have eliminated this
recommendation from the final report.

ITA disagreed with our recommendation to discontinue its practice of allowing applications to be
initially reviewed and ranked by the program staff and ensure that all eligible applications are
reviewed by the Independent Review Panel. ITA’s disagreement essentially involves two points.
The first is that ITA considers insights gained from staff comments to be invaluable to the
process. The second point is that, in its view, a strict adherence to the Department’s draft grants
and cooperative agreements administrative manual’s definition of independence would deny the
Independent Review Panel, referred to as the MDCP Selection Panel in ITA’s response, the


                                                -13-
U.S. Department of Commerce                                           Audit Report ATL-10999-0-0001
Office of Inspector General                                                           December 1999

services of senior managers representing the three program units of ITA (Trade Development,
U.S. and Foreign Commercial Service, and Market Access and Compliance). ITA’s complete
response, excluding attachments, is included as Appendix II.

VIII. OIG Comments

Our recommendation for ITA to discontinue its practice of allowing applications to be initially
reviewed and ranked by the program staff and ensure that all eligible applications are reviewed by
the Independent Review Panel is not intended to prohibit comments and insight from the
program staff. Rather, it is intended to prevent the staff review from effectively serving as an
elimination process for eligible applications since not all eligible applications were reviewed and
scored by at least three members of the Independent Review Panel. In addition, we believe the
inclusion of senior managers from ITA’s Trade Development program area does not provide a
reasonable measure of independence. We believe that requiring all rating officials serving on the
Independent Review Panel to be from program areas outside the Trade Development program
area would provide a more acceptable measure of independence that is consistent with the intent
of the definition of independence in the draft grants and cooperative agreements administrative
manual. In addition, we believe that a member of the Trade Development program area could
serve on the Independent Review Panel, in an advisory role, without impairing the independence
of the review process.




                                               -14-
U.S. Department of Commerce                                                                                                Audit Report ATL-10999-0-0001
Office of Inspector General                                                                                                                December 1999

                                                                                                                                                     APPENDIX I
                                                                                                                                                     Page 1 of 1

                                MARKET DEVELOPMENT COOPERATOR PROGRAM
                                              AWARD PROCESS




ITA publishes solicitation notice                                                                                             A
  -- in Federal Register
  -- on ITA internet web site
  -- to program mailing list



                                                                                                Panel Chairman ranks applications according to
             Mail application kit                                                               independent review panel scores and presents
              to respondents                                                                    recommendations to Assistant Secretary based
                                                                                                on selection criteria:

                                                                                                 (1) Program staff evaluations
                                                                                                 (2) Type of project/priorities
                 Application                                                                     (3) Geographic distributions
                                                                                                 (4) Diversity of industry sectors served
                                                                                                 (5) Diversity of project activities
                                                                                                 (6) Avoidance of redundancy
                                                                                                 (7) Availability of funds
                   Is applicant                        No
        eligible and qualified for the                      Application rejected
               review process?



                     Yes



                                                                                             Assistant Secretary considers whether
                                                                                             recommendations satisfy program's objective and makes
     Application evaluated by ITA
                                                                                             final selections
     Senior Review Panel using
     criteria:
      (1) Export sales potential
      (2) Project compatibility with ITA
          priorities
      (3) Creativity of work plan
      (4) Financial qualifications
      (5) Capacity of applicant to
          implement work plan
      (6) Projected increase in U.S.
          companies in selected markets                                                                            Sent to Department's
                                                                                                                   OEAM and Office of
                                                                                                                   General Counsel for
                                                                                                                           approval

                            A




                                Solicitation Process                        Review Process                     Selection Process
